                  OFFICE OF DEBT COLLECTION MANAGEMENT’S
                           IMPLEMENTATION OF THE
              COLLECTION LITIGATION AUTOMATED SUPPORT SYSTEM

                                    EXECUTIVE SUMMARY

       The Department of Justice’s (Department) Office of Debt Collection
Management (DCM) tracks all civil debts referred by other federal agencies to
the Department for litigation and collection. As of September 30, 1999, the
balance of civil debts owed totaled about $3.2 billion.1 The 94 United States
Attorneys Offices (USAOs) and the Department’s litigating divisions collect the
majority of the referred civil debts. The Department has also contracted with
18 Private Counsel offices in 7 judicial districts to supplement its debt
collection efforts.2

       In past years, the Department components have used multiple
automated systems to track and manage civil debts. For example, most of the
USAOs used the Tracking Assistance for the Legal Office Network (TALON)
system. Many of the Private Counsels and some of the USAOs used a system
named COLLECTOR to manage and track civil debts. History has shown that
the Department has had a poor record of managing debts using these systems.
Accordingly, as detailed below, beginning in 1996 the Department re-focused
its debt collection efforts with regard to the use of automated systems to
manage and track civil debts.

          •   In 1996, the Department was in need of a new centralized system to
              track and manage debts owed to the United States. The Department
              was faced with the options of: (1) re-engineering a mechanized system
              already under deployment, (2) building a proprietary system from
              scratch, or (3) purchasing an existing system and modifying it to meet
              the needs of the Department.

          •   Late in 1996, the Department contracted with KEANE Federal
              Systems to provide an independent analysis of the three options. The
              contractor’s report, issued in December 1996, concluded that the
              most cost efficient and least risky option to meet the Department’s
              mission critical requirements was to purchase an existing system and
              modify it, the third option. The Department selected this option.




1   As of January 22, 2001, the September 30, 1999, data was the latest available.

2The Department contracts with private law firms (Private Counsel offices) to assist in collecting
outstanding debts on behalf of the United States.
     •   In July 1997, the Justice Management Division’s Procurement
         Services Staff issued a request for proposals for an automated debt
         collection management system to track and manage referred debts.

     •   In May 1998, the Department awarded a contract to CACI-IMS,
         Incorporated, (CACI) to provide an automated debt collection
         management system known as the Collection Litigation Automated
         Support System (CLASS). CLASS was to replace the civil debt
         collection systems within the USAOs and Private Counsels, and
         ultimately within all Department components. The contract required
         CACI to implement CLASS in two phases, with a third phase optional.
         During phase I, CACI was required to implement and test the system
         within 7 USAOs and 18 associated Private Counsel offices. The
         contract required phase I to be completed by November 30, 1998.
         During phase II, CACI was required to implement the system in the
         remaining 87 USAOs. The contract required phase II to be completed
         by March 31, 1999. If CLASS proved successful in managing the civil
         debts in the 94 USAOs, a phase III option would expand the system to
         the Department’s litigating divisions, additional Private Counsel
         offices, other Department users, and other agencies external to the
         Department, such as the Administrative Office of the United States
         Courts.

      Our audit assessed the status of CLASS implementation. As of
October 1, 2000, phase I of the contract had been completed as CLASS had
been implemented in the 7 USAOs and 18 associated Private Counsels.
However, phase II had not been completed because CLASS had been
implemented in only 2 of the remaining 87 USAOs. As such, DCM was at least
18 months behind schedule in implementing CLASS and had incurred more
than $4.6 million in additional costs. DCM management could not project a
completion date and estimated monthly additional costs of more than
$400,000 pending completion. Delays resulted from management indecision,
changes in telecommunications requirements, and disagreements between the
DCM office and the Executive Office for United States Attorneys (EOUSA) about
CLASS’s capabilities.

       After the disputes between DCM and EOUSA over competing debt
collection systems had been unresolved for more than a year, and after we
informally communicated our concerns to DCM officials, the Assistant Attorney
General for Administration (AAG/A) took action in early December 2000. The
AAG/A established a team of independent consultants, referred to as the “Red
Team,” to perform a study of the systems in use by the USAOs and Private
Counsels and to recommend the system that best meets the Department’s
requirements. The Red Team’s report, issued on January 19, 2001,
recommended that CLASS be modified and used as the single debt collection
                                    - ii -
system for the Department. After the report was issued, we were informed by
DCM officials that the AAG/A and the Director of EOUSA agreed, for the most
part, with the recommendations made in the study. However, we have not
received documentation to substantiate the statement.

      In addition to the delays in implementing CLASS, we also determined
that during CLASS’s initial implementation phase, non-financial data was not
accurately migrated from TALON to CLASS in two districts. Upon our
disclosing the errors to the contractor, it took prompt action to correct the data
and the program deficiency that caused most of the errors. We also found that:

      •   timeliness of entering debt-related data into CLASS by the Private
          Counsel offices could usually not be determined because most offices
          did not record when incoming documents were received.

      •   summary debt collection reports contained material discrepancies.

       To assess users’ satisfaction, we visited all 7 USAOs and 12 of the
18 Private Counsel offices using CLASS and found that users were generally
satisfied with most of the system’s features. However, many users were
dissatisfied with CLASS’s method of generating documents and tracking
“joint/several” liability cases. These features allow the collectors to
mechanically generate required collection documents and account for loans
that have multiple debtors liable for the same debt.

     The details of our audit work are contained in the Findings and
Recommendations section of the report. Our audit objectives, scope, and
methodology are contained in Appendix I.




                                     - iii -
                                      TABLE OF CONTENTS

                                                                                                       Page

INTRODUCTION............................................................................................ 1
   Background .............................................................................................. 1
   Prior Audit Reports ................................................................................... 3

FINDINGS AND RECOMMENDATIONS.......................................................... 4

      I.   CLASS HAS NOT BEEN TIMELY IMPLEMENTED.............................. 4
           Disagreements between DCM and EOUSA.......................................... 5
           Department Direction and Involvement .............................................. 5
           Performance Goals ............................................................................. 6
           Recommendations.............................................................................. 6

    II.    PROBLEMS OCCURRED IN MIGRATING DATA, DOCUMENTING
            TIMELINESS OF DATA INPUT, AND REPORTING DEBTS
            COLLECTED ................................................................................... 7
           Migrating Data from TALON to CLASS................................................ 7
           Timeliness of Data Entry by Private Counsel Offices ........................... 7
           Reporting Debts Collected .................................................................. 8
           Recommendations.............................................................................. 9

    III. SOME USERS WERE NOT SATISFIED WITH TWO SYSTEM
          FEATURES .................................................................................... 10
         Generating Documents .................................................................... 10
         Joint/Several Liability...................................................................... 10
         Recommendation ............................................................................. 11

OTHER MATTERS ...................................................................................... 12

STATEMENT ON MANAGEMENT CONTROLS.............................................. 13

STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS.............. 14

APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY....................... 15

APPENDIX II - SCHEDULE OF DOLLAR-RELATED FINDINGS .................... 17

APPENDIX III – DEPARTMENT OF JUSTICE RESPONSE TO THE
                DRAFT REPORT.............................................................. 18

APPENDIX IV - OFFICE OF THE INSPECTOR GENERAL, ANALYSIS AND
               SUMMARY OF ACTIONS NEEDED TO CLOSE THE
REPORT ........................................................................... 34
                                         INTRODUCTION

Background

       The federal government guarantees loans and lends money to citizens
through many financial programs, including loans to students and small
businesses. When the debts are in default and cannot be collected through
conventional means, creditor agencies (agencies owed the debt) refer the debts
to the Department of Justice (Department) for collection. As the federal
government's principal litigator, the Department sues the defaulting debtors
and obtains and enforces judgments against those debtors.

       Litigation and debt collection authority for the debts are assigned to the
94 United States Attorneys Offices (USAOs) and other litigating divisions within
the Department, such as the Civil Division and Tax Division. The USAOs
litigate the majority of referred cases and collect the largest amount of
delinquent debts, fines, penalties, and forfeitures. Additionally, the Federal
Debt Recovery Act of 1986 authorized a pilot project for the Department to
contract with Private Counsel offices in seven judicial districts to supplement
the efforts of the USAOs by collecting outstanding debts in smaller dollar cases.
The majority of cases assigned to the Private Counsel offices are Department of
Education loans. As of September 30, 19993, the balance of civil debts to be
collected by the Department totaled about $3.2 billion, as shown below.

                               Balance of Civil Debts Owed
                                 as of September 30, 1999
                      Private Counsel Offices         $404,985,000
                      USAOs                         $1,999,000,000
                      Environment and Natural
                         Resources Division             $6,000,000
                      Tax Division                    $241,000,000
                      Civil Division                  $565,000,000
                      Civil Rights                        $171,000
                      Antitrust Division                   $40,000
                                  Total             $3,216,196,000

       In past years, the Department components have used multiple
automated systems to track and manage civil debts. At times, even different
offices within the same component used different automated systems to
manage and track civil debts. For example, most of the USAOs used the
Tracking Assistance for the Legal Office Network (TALON) system. The Private
Counsels and some of the USAOs used a system named COLLECTOR to
manage and track civil debts. History has shown that the Department has had
a poor record of managing debts using these systems. Accordingly, in 1996,
3   As of January 22, 2001, the September 30, 1999 data was the latest available.

                                                 -1-
the Department focused its debt collection efforts with regard to the use of
automated systems to manage and track civil debts.

       The Department was faced with the options of: (1) re-engineering a
mechanized system already under deployment, (2) building a proprietary
system from scratch, or (3) purchasing an existing system and modifying it to
meet the needs of the Department. Late in 1996, the Department contracted
with KEANE Federal Systems to provide an independent analysis of the three
options. The contractor’s report, issued in December 1996, concluded that the
most cost efficient and least risky option to meet the Department’s mission
critical requirements was to purchase an existing system and modify it, the
third option. The Department selected this option.

       In July 1997, the Justice Management Division’s Procurement Services
Staff issued a request for proposals for an automated debt collection
management system to track and manage referred debts. The Department
required the new system to have, as its centerpiece, a computer system with a
database containing information about debts owed to the federal government
that have been referred to the Department for litigation. The system also had
to be capable of communicating electronically with all USAOs, the
Department’s litigating divisions, and all associated Private Counsel offices. In
May 1998, the Department awarded a contract to CACI-IMS, Incorporated
(CACI) to provide an automated debt collection management system. The
system that was selected uses London Bridge Software Solutions’ Recovery
Management System (RMS), an “off-the-shelf” software program widely used by
the credit and collections industry. CACI was to work with London Bridge to
customize its RMS software to meet the majority of the data management
system requirements. CACI would meet the remaining requirements by
creating individual modules that would interface with the RMS. The
Department named the full system the Collection Litigation Automated Support
System (CLASS). CLASS was to replace the civil debt collection systems within
the USAOs and Private Counsels, and ultimately within all Department
components.

       The contract required CACI to implement CLASS in two phases, with a
third phase optional. During phase I, CACI was required to implement and test
the system within 7 USAOs and 18 associated Private Counsel offices. The
contract required phase I to be completed by November 30, 1998. During
phase II, CACI was required to implement the system in the remaining 87
USAOs. The contract required phase II to be completed by March 31, 1999. If
CLASS proved successful in managing the civil debts in the 94 USAOs, a phase
III option would expand the system to the Department’s litigating divisions,
additional Private Counsel offices, other Department users, and other agencies
external to the Department, such as the Administrative Office of the United
States Courts.


                                       -2-
     Our audit assessed the status of CLASS’s implementation.

Prior Audit Reports

     No prior audits have been conducted on CLASS.




                                   -3-
                    FINDINGS AND RECOMMENDATIONS

I.    CLASS HAS NOT BEEN TIMELY IMPLEMENTED

      As of October 1, 2000, DCM was 18 months behind schedule in
      implementing CLASS and, by its own estimates, had incurred more than
      $4.6 million in additional costs as a result of the delays. Moreover, DCM
      management was unable to provide us with a realistic date of when
      CLASS would be fully implemented. The Department continues to incur
      additional costs of more than $400,000 for each month that the system
      is delayed. The primary reasons for the delay are: (1) ongoing
      disagreements between the DCM office and the Executive Office for
      United States Attorneys (EOUSA) concerning the ability of the system to
      meet the needs of EOUSA users, (2) the lack of direction and involvement
      from Department management towards implementation of the system,
      and (3) changes in the telecommunications requirements after the
      contract was awarded. Because of the delays, DCM did not meet the
      performance goals it established for the project under the Government
      Performance and Results Act of 1993 (GPRA).

      The contract with CACI to implement CLASS was awarded on May 18,
1998, for an amount not to exceed $43.6 million. A total of $4,510,140 was
obligated at the time of contract award to implement the first two phases of the
contract. The contract required CACI to complete phase I -- implementing
CLASS in 7 USAOs and the 18 associated Private Counsel offices -- by
November 30, 1998. The contract required CACI to complete phase II --
implementing CLASS in the remaining 87 USAOs -- by March 31, 1999.
However, phase I was not completed until May 9, 1999, more than 5 months
behind schedule. According to DCM officials, the delay in completing Phase I
was primarily due to changes in the telecommunications requirements within
the Department after the contract was awarded. Phase II implementation did
not begin until November 1999 with the initial efforts to migrate TALON data to
CLASS for two judicial districts, about 8 months after the data migration for
the remaining 87 USAOs was supposed to be completed. Overall, as of
October 1, 2000, implementation of CLASS was 18 months behind schedule
and DCM management could not provide us with a realistic date for when
CLASS would be fully implemented.

       According to estimates prepared by DCM, as of October 1, 2000, the
delay in implementing CLASS has cost more than $4.6 million. Of the
$4.6 million, about $900,000 was for direct payments to the CLASS contractor
for such items as maintaining the use of trainers, computer equipment, and
training space during the delay period. The remaining $3.7 million is
characterized by DCM as “lost opportunity” costs. Lost opportunity costs
represents the estimated costs of staff time that would have been freed up to


                                      -4-
use on other debt collection activities if CLASS had been implemented on
schedule. The estimate also showed that each additional month the system is
delayed will cost the Department $403,053. About $29,000 of the monthly
delay costs are payments to the CLASS contractor and the remaining amount
is for the lost opportunity costs as stated above.

Disagreements between DCM and EOUSA

      Although the DCM and CACI are implementing CLASS, the USAOs
(under the authority of EOUSA) and the Private Counsel offices are the primary
users of the system. EOUSA has expressed reservations about the ability of
CLASS to meet the needs of the USAO users and, therefore, is reluctant to
replace its TALON system in the remaining 87 USAOs.

       During calendar year 1999, DCM and EOUSA held numerous meetings
to try and resolve EOUSA’s concerns about CLASS. Numerous exchanges of
correspondence between DCM and EOUSA also occurred subsequent to the
meetings. While DCM appeared to make progress towards resolving individual
issues raised by EOUSA, it did not appear to reduce EOUSA’s reluctance to
replace TALON with CLASS. After each exchange of correspondence, EOUSA
would often repeat some of its previous concerns, as well as relay additional
concerns to DCM. As of January 2001, EOUSA was still insistent that CLASS
did not sufficiently meet the needs of the USAO users. However, DCM officials
believe they have adequately addressed all of EOUSA’s significant concerns. As
discussed in Finding III, we visited the 7 USAOs in which CLASS has been
implemented, as well as 12 of the 18 associated Private Counsel offices, to
determine if the system was meeting the needs of the users. While the system
has shortcomings that DCM is trying to address, based on our interviews of
system users, we concluded that the system is meeting most of the users’
critical needs.

Department Direction and Involvement

       Since DCM and EOUSA have been working unsuccessfully for more than
a year to resolve their disagreements, we discussed with both DCM and EOUSA
staff what actions they have taken to raise their disagreements to a higher level
so the delay in implementing the system could be resolved. While both DCM
and EOUSA informed us that they have kept senior management informed of
the progress of CLASS’s implementation, neither provided us with
documentation to indicate that Departmental management had made it clear
that the system would be deployed nationally. We did obtain documentation
showing DCM staff briefed the Assistant Attorney General for Administration
(AAG/A) in May 2000. At the briefing, the AAG/A expressed the same concerns
we have regarding the untimely implementation of the system. After the
disputes between DCM and EOUSA over competing debt collection systems had


                                      -5-
been unresolved for more than a year, and after we informally communicated
our concerns to DCM officials, the AAG/A took action in early December 2000.
 The AAG/A established a team of independent consultants, referred to as the
“Red Team,” to perform a study of the systems in use by the USAOs and Private
Counsels and to recommend the system that best meets the Department’s
requirements. The Red Team’s report, issued on January 19, 2001,
recommended that CLASS be modified and used as the single debt collection
system for the Department. After the report was issued, we were informed by
DCM officials that the AAG/A and the Director of EOUSA agreed, for the most
part, with the recommendations made in the study. However, we have not
received documentation to substantiate the statement.

Performance Goals

       The GPRA requires federal agencies to develop: (1) a strategic plan that
identifies agencies’ long-term goals, and (2) annual performance plans that
identify the measurable performance goals that agencies will accomplish each
year. We found that while DCM had established performance goals related to
the implementation of CLASS, the goals had not been met because of the
delays in implementing the system. Based on the results of the Red Team’s
evaluation, DCM’s performance goals need to be changed to measure progress
of the system through completion.

Recommendations:

We recommend the Assistant Attorney General for Administration:

1. Act quickly to implement the recommendations of the “Red Team” to
   minimize any further delays in implementing a nationwide debt
   management system and to minimize the expenditure of additional
   unnecessary costs.

2. Require the DCM to revise its performance goals based on management
   actions taken as a result of the “Red Team’s” evaluation, and to implement
   steps to achieve those goals.




                                      -6-
II.   PROBLEMS OCCURRED IN MIGRATING DATA, DOCUMENTING
      TIMELINESS OF DATA INPUT, AND REPORTING DEBTS COLLECTED

      We found that, during the initial implementation phase, non-financial
      data was not accurately migrated from TALON to CLASS in two districts.
       Upon disclosing the errors to CACI, it took prompt action to correct the
      data and the program deficiency that caused most of the errors. In
      addition, we found that timeliness of entering debt-related data into
      CLASS by the Private Counsel offices could usually not be determined
      because the offices were not required to, and did not, date stamp
      incoming documents. We also identified material discrepancies in DCM’s
      and EOUSA’s reports on debts collected.

Migrating Data from TALON to CLASS

       In November 1999, DCM and CACI began the process of migrating data
in two USAOs from the TALON system to CLASS. As of March 9, 2000, CACI
had migrated the non-financial data from TALON to CLASS for 6,849 debt
cases assigned to the two districts. CACI’s efforts in these two USAOs were the
first attempts to migrate TALON data to CLASS. We judgmentally selected
20 of the cases and compared the data in CLASS after the migration to the data
in TALON. We found errors in the migrated data for 11 of the cases reviewed.
The types of errors included: (1) incomplete phone numbers and social
security numbers; (2) unsupported numbers in the CLASS database for certain
fields; and (3) the inclusion of two TALON criminal cases, which should not
have been included in the civil debt database. While our sample was relatively
small, the majority of the errors found were systemic in nature as they
primarily resulted from programming errors. Specifically, some CLASS data
fields allowed fewer characters than the corresponding TALON data fields.
Therefore, when the TALON data was migrated to CLASS, the TALON data was
truncated to fit into the smaller CLASS data fields, thus rendering the migrated
data inaccurate. When we advised CACI of the errors, CACI took prompt
actions to correct the errors in the migrated data, as well as to correct the
deficiency in the software program used to migrate the data.

Timeliness of Data Entry by Private Counsel Offices

       The contract between the Department and the Private Counsel offices
requires that users enter judgment dates, interest dates, and complaint dates
into the CLASS system as they occur. Private Counsel offices that do not
provide timely information are subject to financial sanctions up to and
including termination of the contract. We visited 12 of the 18 Private Counsel
offices that had implemented CLASS and attempted to determine whether debt-
related data was being timely entered into the system. Three of the 12 offices
did not have any current CLASS cases to test. Of the remaining nine offices,


                                      -7-
eight did not record when incoming documents were received. As such, a
calculation of the time from document receipt until data input could not be
made. For the one office that recorded when incoming documents were
received, we tested 50 collection-related documents and found the office
entered data late at least 82 percent of the time. The number of days late
ranged from 1 to 181, and averaged 64 days. Additionally, staff from several
Private Counsel offices stated they usually do not enter all pertinent data into
CLASS’s data fields. Specifically, information that precedes the actual
judgment date, such as the complaint filed date or the date the complaint was
served on the debtor, is not entered. Pre-judgment dates were deemed
unimportant by counsel’s staff. However, a DCM official stated that it is
important to have these dates in the system in case management of the debts
has to be referred to another collection authority.

       We advised a senior DCM official of the problem we had determining
whether the Private Counsel offices were timely entering data into CLASS. The
DCM official stated she considered it important that information be input
accurately and timely. The official explained that Private Counsel offices may
change and subsequent collectors must have an accurate, up-to-date picture of
collection activities. If the Private Counsel offices do not keep the database
current, collection efforts may be degraded by the lack of important and timely
information.

Reporting Debts Collected

       The DCM gathers, compiles, and distributes a report on total debts
collected by Department components and collections deposited into the U.S.
Treasury. We noted significant differences between the dollar amounts
reported as collected and the amounts reported as deposited in the U.S.
Treasury for FYs 1998 and 1999. The following table illustrates the
differences.

            Differences in Debt Collected and Debt Deposited
                                         Period Ended    Period Ended
                                           9/30/98         9/30/99
 Debt Amount Reported as Collected $1,221,566,904 $1,596,441,150
 Debt Amount Deposited in Treasury $1,123,016,503 $1,376,652,215
 Difference                             $   98,550,401 $ 219,788,935
 Difference Accounted For               $      255,000 $            0
 Difference Not Accounted For           $   98,295,401 $ 219,788,935
   Source: DCM’s Financial Litigation Reports for FY 1998 and 1999


       DCM could not explain the differences and stated that they make no
effort to resolve differences between the amounts reported as collected and
deposited on the report. According to the officials, DCM simply aggregates the


                                               -8-
collection amounts reported by the various components and prepares summary
data for management’s information. The officials further stated that the
summary financial data would not affect the accuracy of CLASS when data is
migrated from TALON because financial information in each debtor case will be
individually reconciled before migration is completed. In our judgment,
however, collection data reported to senior Department officials should be
reconciled, or confirmed as accurate by other means, before the information is
disseminated within and outside the Department.

       In our review of summary level data at EOUSA, we also noted reporting
discrepancies that should be corrected. As detailed in the following table, the
debt balance reported on the last day of FY 1998 did not match the beginning
balance reported the next day (the first day of FY 1999.) The same type of
discrepancy occurred at the end of FY 1999 and beginning of FY 2000.

          Differences Between Ending and Beginning Balances
   Period                      Period
   Ended         Balance       Began        Balance       Difference
  9/30/98    $1,633,692,526   10/1/98    $1,535,687,297 $98,005,229
  9/30/99    $1,574,372,132   10/1/99    $1,568,634,515 $ 5,737,617
    Source: EOUSA


     We intend to examine these types of discrepancies in more detail in a
subsequent audit.

Recommendations:

We recommend the Assistant Attorney General for Administration:

3. Require DCM to institute procedures, such as date stamping of incoming
   documents, to enable the verification of whether data is being timely entered
   into CLASS, and ensure the Private Counsel offices input all required data
   timely.

4. Require DCM to obtain a certification from the USAOs that they have
   verified the accuracy of the financial data in TALON before allowing the data
   to be migrated from TALON to CLASS.




                                      -9-
III.   SOME USERS WERE NOT SATISFIED WITH TWO SYSTEM FEATURES

       During our fieldwork, we visited the 7 USAOs and 12 of the 18 Private
       Counsel offices using the CLASS system and found that users were
       generally satisfied with most of the system features. However, most of
       the users were not satisfied with system features related to generating
       documents and managing “joint/several” liability cases. Users in
       17 of 19 offices we visited stated the CLASS system was deficient in
       producing all required documents. While 7 of the 19 offices did not have
       joint/several liability debt cases, users in 7 of the remaining 12 offices
       had reservations about the usefulness of the joint/several liability
       feature.

Generating Documents

       The ability of the debt management system to easily generate documents
such as initial demand letters, client agency acknowledgment letters, or
payment default letters can greatly simplify a debt manager’s job. While users
in the 7 USAOs and 12 Private Counsel offices we visited used and were
satisfied with most of CLASS’s features, users in 6 USAOs and 11 Private
Counsel offices complained that the document generation feature of CLASS was
not user friendly. Users expressed an enormous amount of confusion and
dissatisfaction regarding the program’s ability to produce needed documents.
Some users stated they did not use CLASS because the program did not meet
their office’s document generation needs. Other users indicated that the up-
front resources needed to modify the program’s document generation features
were too demanding and therefore they chose not to use it. Still other users
were concerned about the integrity of the financial data being captured from
the database that would be inserted into the system-generated letters. A user
in one Private Counsel office stated that her office used the document
generation feature exclusively and felt it effectively met their needs. She added,
however, that more than a year was needed to modify, test, and gain enough
experience with the feature to make it a useable tool in her office.

Joint/Several Liability

      Joint/several liability relates to cases where multiple debtors are
responsible for the repayment of a single debt. The joint/several liability
feature of the system must be capable of: (1) recognizing, recording, and
processing a payment by one debtor; and (2) reducing the total balance due
from all debtors while not modifying the payment records or payment
arrangement of the non-paying debtor(s).

     During our fieldwork, we visited 19 offices (7 USAOs and 12 Private
Counsel offices) and tested the usefulness of the joint/several liability feature


                                       - 10 -
of the system. The DCM had assured us that earlier shortcomings of the
system were addressed and that the feature was operational. Seven of the
19 offices had not used the feature because their caseloads did not include
joint/several debtor cases. Users in 7 of the remaining 12 offices stated that
while the feature worked, they had reservations about the ability of the feature
to be useful. Several respondents stated they believed the feature was very
cumbersome and prone to display misleading information. Another user said
that only users very familiar with the system could adequately use the feature.
 Synopses of the comments of the seven users with reservations about the
joint/several feature of CLASS are as follows.

                                                   User Comments Regarding
       Office Visited                            Joint/Several Liability Feature
Southern District of Florida     Works but needs improvement. Not user friendly. System
USAO                             Is inefficient and displays debt balances differently when
                                 comparing screens within the same case.
Eastern District of New York     Works but has problems. Not user friendly. System
USAO                             incorrectly sends out a paid-in-full notice if one of the
                                 multiple joint/several debtors pays “their share.”
Eastern District of Michigan     Works but is not satisfied. Not user friendly. Must access
USAO                             too many screens to get simple information. System
                                 generates multiple statements for each debtor causing the
                                 balances to appear inaccurate.
Eastern Michigan Private         Works but technicians must be very familiar with
Counsel #1                       operational aspects of the feature to ensure accurate
                                 data is obtained.
Eastern Michigan Private         Works but CLASS uses the same balance for each debtor.
Counsel #2
Central District of California   Works but the feature is inefficient. Technicians must enter
USAO                             data for each debtor. Also, technicians are required to
                                 modify the primary accounts to close events the system
                                 automatically enters.
Central District of California   Works but has had only one joint/several case. USAO had
Private Counsel #1               to assist in entering data.


Recommendation:

We recommend the Assistant Attorney General for Administration:

5. Require DCM to obtain input from all offices using CLASS about the
   problems they are having with the document generation and joint/several
   liability features of CLASS. After receipt and analysis of user input, DCM
   should take action to ensure these features meet user needs.




                                           - 11 -
                               OTHER MATTERS

       The purpose of this section is to bring to DCM management’s attention
other matters that we noted during the audit. These matters are not part of
the audit report’s Findings and Recommendations section because they are not
directly related to the audit objective or are less significant in nature. Thus, no
response is necessary since this section is for informational purposes only.

DCM’s oversight of the CLASS contractor. The contract between the Department
and CACI requires CACI to submit periodic reports on system down time and
system processing time to DCM. When system down time or system processing
time is outside the limits set by the contract, the contractor is required to grant
the Department a credit against the amounts paid to the contractor to
maintain the system. We found that the contractor had not submitted the
required system monitoring reports to DCM and DCM had not taken any
actions to enforce the contract terms. However, our on-site reviews at 7 USAOs
and 12 Private Counsel offices did not identify any significant problems with
system down time or system processing time.

DCM’s list of CLASS users. The NCIF maintains a list of Department and
Private Counsel users who are currently authorized to access and use the
CLASS program. We found the list of active users provided by DCM was not
accurate because it contained many individuals who no longer should have
access to the system. We found that DCM’s list contained 38 users in 17 of the
19 offices we visited that had either left the office or no longer needed access to
the system. To no avail, at least 7 of 17 offices had previously contacted DCM
to have the unauthorized users removed from the access list.




                                       - 12 -
             STATEMENT ON MANAGEMENT CONTROLS

      In planning and performing our audit of DCM’s implementation of
CLASS, we considered DCM’s management controls for the purpose of
determining our auditing procedures. This evaluation was not made for the
purpose of providing assurance on DCM’s management controls as a whole.
We noted, however, certain matters that we consider to be reportable
conditions under Government Auditing Standards.

        Reportable conditions involve matters coming to our attention relating to
significant deficiencies in the design or operation of the management controls
that, in our judgment, could adversely affect DCM’s ability to effectively
manage the implementation of CLASS. As discussed in the Findings and
Recommendations section of this report, we found that: (1) DCM was
significantly behind schedule in implementing CLASS, (2) civil debt data
initially migrated from TALON to CLASS was not accurate, (3) timeliness of
data entry could not be determined for Private Counsel offices, (4) summary
debt collection reports contained discrepancies, and (5) some users were not
satisfied with certain features of CLASS. Also, as discussed in the OTHER
MATTERS section, we noted that unauthorized users had not been removed
from DCM’s list of users authorized access to CLASS.

      Because we are not expressing an opinion of DCM’s management
controls as a whole, this statement is intended solely for the information and
use of DCM in managing the implementation of CLASS. This restriction is not
intended to limit the distribution of this report, which is a matter of public
record.




                                      - 13 -
      STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS

       We have audited the DCM’s implementation of the CLASS debt
management system. The audit period covered from the award of the contract
in May 1998 through November 2000, and included a review of selected
activities and transactions. The audit was conducted in accordance with
generally accepted Government Auditing Standards.

      In connection with the audit and as required by the standards, we
reviewed procedures, activities, and records to obtain reasonable assurance
about the DCM’s compliance with laws, regulations, and Office of Management
and Budget (OMB) Circulars that, if not complied with, we believe could have a
material effect on program operations. Compliance with laws, regulations, and
the contract applicable to CLASS is the responsibility of DCM’s management.

      Our audit included examining, on a test basis, evidence about laws,
regulations, and OMB Circulars. The specific laws and regulations for which
we conducted tests are contained in the relevant portions of:

            •     OMB Circular A-125, Prompt Payment Act
            •     Department of Justice Order 2640.2C
            •     Debt Collection Act of 1996
            •     Government Performance and Results Act of 1993

      Except for instances of non-compliance identified in the Findings and
Recommendations section of this report, DCM was in compliance with the laws
and regulation referred to above. With respect to those transactions not tested,
nothing came to our attention that caused us to believe that DCM was not in
compliance with the referenced laws and regulations cited above.




                                     - 14 -
                                                                 APPENDIX I

                OBJECTIVES, SCOPE, AND METHODOLOGY

      We performed our audit in accordance with Government Auditing
Standards and, accordingly, included such tests of the records and procedures,
as we deemed necessary.

      Our objectives were to assess the status of implementation of CLASS and
the accuracy and timeliness of the system’s civil debt collection accounting.
The audit focused on the Office of Debt Collection Management’s (DCM) efforts
to implement CLASS from the time the contract with CACI-IMS, Incorporated,
was awarded in May 1998 through November 2000.

       We reviewed applicable federal laws and regulations, DCM directives and
reports, and other documents related to the implementation of CLASS. We also
interviewed DCM and Executive Office for the United States Attorney officials
involved in implementing CLASS.

       To determine the adequacy of DCM’s efforts to implement CLASS, we also
performed on-site reviews at 7 United States Attorneys Offices (USAOs) and
12 of the 18 Private Counsel offices in which CLASS was being used. A list of
the offices we reviewed follows:

United States Attorneys Offices
Eastern District of Michigan, Detroit, MI
District of Columbia, Washington, DC
Central District of California, Los Angeles, CA
Northern District of California, San Francisco, CA
Eastern District of New York, Brooklyn, NY
Southern District of Texas, Houston, TX
Southern District of Florida, Miami, FL

Private Counsel Offices
Holzman & Holzman, Southfield, MI
Shermeta, Chimko & Kilpatrick, Rochester Hills, MI
Mauro & Associates, Washington, DC
Herbert A. Rosentahl, Washington, DC
Irsfeld, Irsfeld & Younger, Glendale, CA
Michael Cosentino, Esq., Alameda, CA
Goldsmith & Burns, Tarzana, CA
Hayt, Hayt & Landau, Garden City, NY
Sharinn & Lipshie, Garden City, NY
Alonso & Cersonsky, P.C., Houston, TX
Bennet & Weston, P.C., Dallas, TX


                                     - 15 -
David Newman, Esq., Miami, FL




                                - 16 -
      At the USAOs and the Private Counsel offices, we interviewed CLASS
system users and office supervisors to determine if either had experienced:

      •   problems with data entry, reliability, storage, or retrieval.

      •   unexpected costs or modifications to its office software or hardware in
          order to make CLASS operational.

      •   unscheduled down time of the CLASS system.

      •   slow system response times when entering or updating data, or when
          generating reports.

      •   problems with CLASS’s ability to generate the documents needed to
          take collection actions.

      •   problems with CLASS’s joint/several liability feature.

      •   problems where CLASS did not provide adequate edits and quality
          control functions.

      •   problems with CLASS’s ability to calculate installment payments
          correctly.

     At the USAOs and Private Counsel offices, we also reviewed
documentation to determine if:

      •   guidance and training on the use of CLASS were provided to system
          users.

      •   the National Central Intake Facility help desk responded to user
          requests in a timely manner.

      •   the list of system users maintained by DCM matched the actual users
          in the field.

      •   data was accurately and timely entered into CLASS.




                                       - 17 -
                                                                                   APPENDIX II

                    SCHEDULE OF DOLLAR-RELATED FINDINGS

QUESTIONED COSTS4                                             AMOUNT                 PAGE

Estimated Additional Costs of CLASS Delays                    $4,600,000               4
 From April 1, 1999 to September 30, 2000


FUNDS TO BETTER USE5

Annualized Cost of Additional Monthly CLASS                   $4,836,636               5
 Delays After September 2000
 ($403,053 per month times 12 months)




4 QUESTIONED COSTS are defined as expenses incurred that do not comply with law or other official
requirements, or are unsupported by adequate documentation, or are unnecessary or unreasonable for
the intended purpose. They can be recoverable or non-recoverable.

5FUNDS TO BETTER USE are defined as monies that have not been spent that could be more efficiently
used in the future if management acts on our findings.



                                               - 18 -
                                 APPENDIX III

DEPARTMENT OF JUSTICE RESPONSE




             - 19 -
- 20 -
- 21 -
- 22 -
- 23 -
- 24 -
- 25 -
- 26 -
- 27 -
- 28 -
- 29 -
- 30 -
- 31 -
- 32 -
- 33 -
- 34 -
                                                                APPENDIX IV

     OFFICE OF THE INSPECTOR GENERAL, AUDIT DIVISION, ANALYSIS
     AND SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT

Recommendation Number:

1.     Resolved. This recommendation can be closed when we receive
       documentation to show a deployment plan has been established for
       implementing the Collection Litigation Automated Support System
       (CLASS) nationwide to all Department of Justice components.

2.     Resolved. This recommendation can be closed when we receive
       documentation showing the Office of Debt Collection Management has
       revised its performance goals based on the nationwide deployment plan
       for CLASS.

3.     Closed.

4.     Closed.

5.     Closed.




                                     - 35 -
